OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S FOOD FOR
PEACE ACTIVITIES IN
MAURITANIA
AUDIT REPORT NO. 7-682-12-005-P
APRIL 11, 2012




DAKAR, SENEGAL 

Office of Inspector General


April 11, 2012

MEMORANDUM

TO:       	          Office of Food for Peace Director, Dina Esposito
                     USAID/Senegal Mission Director, Henderson Patrick

FROM: 	              Regional Inspector General/Dakar, Gerard Custer

SUBJECT:	            Audit of USAID’s Food for Peace Activities in Mauritania
                     (Report No. 7-682-12-005-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in Appendix II.

The report contains five recommendations to strengthen the ability of USAID’s Office of Food for
Peace to monitor and implement its program in Mauritania. With the information you provided in
your response to the draft report, we determined that final action has been taken on
Recommendations 1, 2, 3, and 5. Recommendation 4 remains without a management decision.
Please provide us with a written response within 30 days on actions planned or taken to
implement Recommendation 4. Recommendations 1, 2, 3, and 5 are closed on issuance of this
report.

I appreciate the cooperation and courtesy you extended to my staff during the audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Some Performance Data Was Invalid or Unreliable................................................................ 4 


     Implementer’s Performance Tracking Tool Did Not Sufficiently 

     Represent Program Activities.................................................................................................. 5 


     Baseline Survey Results Were Irrelevant and Unreliable ....................................................... 6 


     Cost Recovery From Monetization Was Lower Than Projected ............................................. 8 


     Commodity Quantities on Hand Differed From Warehouse Records ................................... 10 


Evaluation of Management Comments................................................................................... 12 


Appendix I—Scope and Methodology .................................................................................... 13 


Appendix II—Management Comments ................................................................................... 15 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
CFR             Code of Federal Regulations
FY              fiscal year
GAO             Government Accountability Office
HRW             hard red winter wheat
IPTT            indicator performance tracking table
RIG             Regional Inspector General
SRW             soft red winter wheat
WFP             World Food Programme
SUMMARY OF RESULTS 

The U.S. Government created the Food for Peace program in 1954 through the Agricultural
Trade Development Assistance Act, now known as the Food for Peace Act.1 The act aims to
“promote the foreign policy of the United States by enhancing the food security of the
developing world through the use of agricultural commodities and local currencies.” Under the
act, U.S. Government agencies may ship agricultural commodities to developing countries and
either monetize2 the commodities or directly distribute them to program beneficiaries.

According to a March 2010 joint World Food Programme (WFP)-Government of Mauritania
study, Mauritania suffers from a structural food deficit.3 This means, according to WFP,4 that
the country’s limited means for food production, underuse of agricultural capacity, susceptibility
to desertification, and low agricultural outputs have created reliance on food imports to meet
nutritional needs. As food prices have risen while household incomes in Mauritania’s rural
areas have declined, food has become less accessible. This situation has increased the risk of
food insecurity in what is already one of the world’s least developed countries.

To address this challenge, USAID’s Office of Food for Peace signed a 5-year cooperative
agreement with Counterpart International (Counterpart) to implement the Community Action,
Nutrition, and Livelihoods Program. The program is designed to strengthen human capabilities
in health and nutrition—that is, to equip people in four regions of Mauritania to improve health,
nutrition, and hygiene practices; provide for household needs; and mitigate food insecurity.
Under the award, signed in October 2006, USAID agreed to provide goods and cover shipping
and administrative costs amounting to $20.3 million. At the time of the audit, USAID had
increased that amount to $22.3 million and given Counterpart a 1-year, no-cost extension.

As of January 31, 2012, USAID had provided Counterpart with 39,480 metric tons5 of food for
the program. Of this amount, Counterpart monetized 35,370 metric tons of wheat, earning
$10.5 million. It directly distributed 4,110 metric tons of vegetable oil, bulgur, corn-soy blend,
and lentils. At the time of the audit, USAID officials said they had no plans to initiate a new
Food for Peace activity in Mauritania but were considering another extension of the current
program.

The objective of the audit was to determine whether USAID’s Food for Peace Program in
Mauritania was achieving its goals related to strengthening human capabilities in health and
nutrition. The program appeared to be improving health and nutrition capabilities in all of the
communities visited. Representatives of targeted communities credited the program with
increasing beneficiaries’ ability to treat mild malnutrition and minor health problems without

1
  The Agricultural Trade Development and Assistance Act of 1954, Public Law 83-480, later renamed the

"Food for Peace Act.”

2
  USAID’s Monetization Field Manual defines monetization as “the selling of agricultural commodities to

obtain foreign currency for use in U.S. assistance programs.” In this program, USAID purchased wheat in

the United States and shipped it to Mauritania, where the implementing partner sold it to generate local 

currency for program implementation.

3
  “Note de synthèse: République Islamique de Mauritanie, Etude sur le Suivi de la Sécurité Alimentaire 

des Ménages,” March 28, 2010.

4
  WFP, Mauritania Overview, http://www.wfp.org/countries/Mauritania/Overview. 

5
  One metric ton is equal to 1,000 kilograms or 2,204.6 pounds.




                                                                                                       1
travelling long distances to health posts and to identify cases that need urgent treatment from
medical professionals. Representatives also noted that improved hygiene reduced the number
of cases of diarrhea among children in their communities. The program initiated routine testing
to identify mildly and severely malnourished children. According to unaudited Counterpart data,
communities identified 8,283 malnourished children in fiscal year (FY) 2008, and 6,748 in FY
2011, suggesting a 19 percent decrease among children in the program’s intervention area.

However, it was not possible to confirm that the program was meeting its goals because of
problems affecting the performance monitoring system for the first 4 years of implementation.

	 The system that Counterpart used for collecting and reporting performance data for the
   years prior to FY 2011 was faulty, causing the results for those years to be invalid and in
   some cases unreliable (page 4).

	 The indicators included in the program’s most comprehensive tool for monitoring
   performance, the indicator performance tracking table (IPTT), did not adequately represent
   program activities for FY 2010 and FY 2011 (page 5).

During the first 4 years of implementation, the program faced challenges including delays in
obtaining a host-country agreement;6 a military coup in Mauritania, which necessitated revisions
to program activities; limited USAID oversight; and high turnover of key program personnel.
Moreover, USAID emphasized the difficult conditions affecting work in Mauritania, including
poor roads, long distances between sites, and limited capacities of local staff.

In addition to performance monitoring weaknesses, the auditor identified the following
implementation problems:

	 The baseline survey results were irrelevant and unreliable (page 6). The consultant hired to
   conduct the baseline survey gathered regional information, not the local information needed
   to measure program performance. Subsequent work revealed that the baseline values
   differed markedly from other regional data, indicating that the baseline values were
   unreliable. Consequently, some of the program targets were unrealistic, and evaluating the
   program’s impact will be difficult and costly.

   Cost recovery7 from monetization was lower than projected (page 8). Instead of recovering
    88 percent of procurement and shipping costs through commodity sales, the program
    recovered only 67 percent. Estimates of shipping costs were unrealistic, the kind of wheat
    shipped one year commanded a very low price, and government food subsidies forced the
    usual buyers of wheat to renege on their agreements and program officials to negotiate
    lower sales prices. The lower-than-expected cost recovery meant USAID had to provide
    more cash than budgeted to the program.

	 Commodity quantities on hand differed from warehouse records (page 10). Neither
   Counterpart employees nor beneficiaries could provide documentation to show that they had

6
 An agreement between an implementing partner, such as Counterpart, and the foreign government of
the recipient country that authorizes the partner to conduct Food for Peace activities there in a manner
consistent with the terms and conditions set forth in the Code of Federal Regulations (22 CFR 211).
7
  In this report, cost recovery means the total amount earned from selling Food for Peace commodities
divided by the total cost to procure and ship them to Mauritania.



                                                                                                      2
   done physical counts to validate inventory on hand, and the auditor observed thousands of
   bags of corn-soy blend stacked irregularly, precluding a physical count. Because
   Counterpart uses warehouse records to decide when to distribute commodities, inaccurate
   records could interfere with keeping adequate supplies in stock.

To resolve these problems, the Regional Inspector General/Dakar (RIG/Dakar) recommends
that USAID’s Office of Food for Peace:

1. 	Establish and implement a plan to provide more oversight to partners throughout the
    baseline survey process (page 7).

2. 	Make a management decision on the allowability of the ineligible questioned cost of
    approximately $36,171 for the program baseline survey, and collect from the recipient any
    amounts determined to be unallowable (page 8).

3. 	 Establish and implement a plan to require an analysis on the suitability and use of specific
     types of commodities before awarding any new Food for Peace programs in Mauritania
     (page 10).

4. 	 Address the use of realistic shipping rate estimates in program proposals and budgets in its
     upcoming revision to the Monetization Field Manual (page 10).

5. 	 Work with the partner to develop and implement a system of periodic, documented inventory
     counts for all warehouses where program commodities are stored (page 11).

Detailed findings appear in the following section in order of their relevance to the audit objective.
Appendix I contains information on the scope and methodology. Appendix II contains
management's comments in their entirety, and our evaluation of management's comments is
included on page 12 of the report.




                                                                                                   3
AUDIT FINDINGS 

Some Performance Data Was
Invalid or Unreliable
USAID’s Automated Directives System (ADS) states that performance management data should
be valid and reliable (ADS 203.3.5.1, “Data Quality Standards”).

USAID used various tools to monitor Counterpart’s performance. The most comprehensive
resource was the IPTT. Counterpart included this document in its annual performance reports
to USAID to represent program accomplishments. The IPTT included 39 indicators in 2010 and
38 in 2011.

The auditor found that some of the data reported in Counterpart’s 2010 and 2011 IPTTs for the
program did not meet USAID’s standards for validity and reliability. Specifically, the auditor
reviewed results reported on eight IPTT indicators for FYs 2010 and 2011 and noted the
following shortcomings.

Validity. According to ADS, data should represent intended results clearly and adequately in
order to be valid. However, for the indicator Number of communities with community action plan
to improve community infrastructure to support improved food security, Counterpart reported the
total number of communities that had any community infrastructure projects listed in their plans,
failing to consider whether the activities would support improved food security. While
Counterpart reported 75 for this indicator in both FY 2010 and 2011, the valid totals for those
years were 26 and 39. Counterpart explained that the errors occurred because the staff
collecting the data did not understand the indicator.

Reliability. ADS states that data collection and analysis should be stable and consistent. One
of the indicators that the auditor selected for review was Number of months of adequate food
provisioning. Counterpart collected data on this indicator—measuring the average number of
months per year that program beneficiaries had sufficient food—through an annual survey of
households. The FY 2010 IPTT reported a result of 9 months of adequate food provisioning per
year, while the FY 2011 IPTT reported a result of 3.3 months. When asked about the significant
decrease, Counterpart stated that the FY 2010 result was likely not reliable because those
conducting the survey may not have understood the best way to frame the question when
posing it to beneficiaries. In some cases, they also may have reported the average number of
months of inadequate, instead of adequate, food provisioning. Counterpart reportedly corrected
this problem in 2011, resulting in the lower (but more accurate) result.

Also in terms of reliability, ADS states that different analysts should come to the same result
when analyzing reported data. However, in attempting to compare 13 reported results8 for
FYs 2010 and 2011 with the supporting documentation, the auditor found that 8 of the results
were not supported. Data entry errors, failure to document some training events, and
insufficient understanding of the data collection process among program implementers led to
the lack of support.

8
    Results for eight indicators collected over 2 years minus results for three discontinued indicators.



                                                                                                           4
USAID did not address problems related to data quality until 2011 because of three challenges
that affected program implementation. First, at the start of the program, Counterpart struggled
to obtain its host-country agreement with the Government of Mauritania. The U.S. Code of
Federal Regulations (22 CFR 211.3(b)) requires award recipients to establish this type of
agreement whenever appropriate and feasible before starting implementation. Counterpart
finally signed the agreement 10 months after signing the cooperative agreement with USAID.
Second, a military coup followed in August 2008, requiring Counterpart to revise its approach to
a significant portion of program activities. Counterpart had to cease activities that involved
cooperation with Government of Mauritania health agencies to avoid working with a government
that was not democratically elected. Finally, USAID lacked adequate oversight resources in
Mauritania until December 2010, when USAID recruited a Food for Peace officer whose main
task was to monitor the program. This shortage of personnel resulted in decreased oversight of
the program by USAID, which limited Counterpart’s access to experts on USAID’s standards for
performance monitoring and data quality.

Because of the invalid and unreliable data, the auditor was not able to make an accurate
assessment about whether the program was meeting its goals. Moreover, these data problems
could limit the information available to USAID for decisions about future program design or
partner selection.

Following a thorough data quality assessment performed by USAID in May 2011, Counterpart
made notable improvements in performance monitoring. This included clarifying what data to
collect for each indicator and developing and documenting a system for reporting and verifying
data. The auditor interviewed Counterpart staff members at all levels of the data collection
process, who reported that their understanding of what data to collect and how to collect it had
improved over the previous year. The auditor also observed the data collection process and
concluded that the improvements would increase the quality of the program’s data. Because
actions already taken have addressed this problem, no recommendation is needed.

Implementer’s Performance
Tracking Tool Did Not Sufficiently
Represent Program Activities
ADS (203.3.3.1, “Contents of a Complete Performance Management Plan”) requires that the
indicators in a program’s performance management plan “should be chosen with care so that a
minimum number of indicators accurately reflect the performance of the result they are intended
to track.”

A 2011 data quality assessment that USAID conducted on the indicators included in
Counterpart’s IPTT identified 12 indicators that could be removed for various reasons, including
the following.

   One indicator, Percent of children under 5 regularly receiving Vitamin A capsules, did not
    pertain directly to a Counterpart activity. The Government of Mauritania Ministry of Health
    was responsible for Vitamin A distributions. Counterpart only provided the capsules and
    some technical support.

	 Counterpart added the indicator Percent decrease in animal mortality rate based on a
   suggestion from the midterm review. However, USAID and Counterpart agreed that the



                                                                                              5
   program’s interventions are unlikely to affect the animal mortality rate, even in the zones
   where the program operates.

	 The IPTT included three indicators when only one was necessary: (1) Number of community
   members completing participatory awareness raising training (training related to developing
   a community action plan), (2) Number of communities completing a community action plan,
   and (3) Number of communities with a community action plan to improve community
   infrastructure to support improved food security. To be counted for the third indicator, a
   community would have already been counted for the first two. Since the program was
   primarily interested in the third indicator, the first two were unnecessary.

Furthermore, for much of the program, Counterpart staff members did not understand the IPTT.
The auditor discussed program monitoring with Counterpart personnel responsible for
collecting, consolidating, verifying, and reporting data. These discussions confirmed that, for
the first 3 to 4 years of implementation, the performance monitoring process was unclear.
Some Counterpart personnel stated that during this time they did not always know why they
were collecting data or how to collect it.

USAID and Counterpart officials explained that the process of developing relevant, measurable
indicators had been a challenge for the first 3 years, largely because of the political and
oversight issues described in the previous section. While USAID had little control over the local
political environment, it did have control over the level of oversight and personnel resources in
Mauritania. Although USAID attempted to monitor the program remotely and with periodic visits,
the auditor, Food for Peace personnel, and Counterpart staff agreed that there was no
substitute for the oversight provided by an in-country Food for Peace officer.

Following the data quality assessment that USAID conducted in May 2011, Counterpart
corrected these problems by developing a revised IPTT for FY 2012 that included 28 indicators
pertinent to program activities. Unfortunately, the problems with the IPTT indicators during the
first 3 to 4 years of implementation will make it difficult to assess the program’s impact over the
entire period of implementation. If USAID had put adequate monitoring personnel in place
earlier, the program might have addressed this problem sooner. However, because additional
personnel now provide oversight, no recommendation is needed.

Baseline Survey Results Were
Irrelevant and Unreliable
ADS requires program personnel to complete a performance management plan with relevant
indicators and baseline values once they have executed an award agreement (ADS 203.3.3,
“Performance Management”), to provide a baseline value for each indicator (ADS 203.3.3.1(b)),
and to measure baseline values using the same data collection source and method that will be
used to collect actual performance data (ADS 203.3.4.5, “Setting Performance Baselines and
Targets”).

Counterpart hired a consultant to perform a baseline study in September 2007 to meet ADS
requirements, but later found the results to be irrelevant and unreliable. The consultant
performed the study and provided a report, dated September 2007, to Counterpart. Counterpart




                                                                                                 6
accepted the report and paid the contractor approximately $36,171.9 When Counterpart started
implementing the program, the staff realized that the baseline results were irrelevant because
the consultant based his work on regional data, while Counterpart worked only in certain
communes of each region.10 In late 2008, a consultant working for the program found that the
results from the baseline study varied enough from other regional data to question their
reliability.

From discussions with Counterpart and USAID, the auditor concluded that poor planning and
insufficient oversight by USAID led to the problems with the baseline study. For example,
Counterpart did not require the consultant to gather data from the specific communes that the
program would assist. The statement of work in the consultant’s agreement requested only the
regional data. Furthermore, as discussed above, Counterpart changed the IPTT indicators it
was using to measure program performance after the study was complete, limiting the
usefulness of the study data. Finally, even though the consultant’s agreement required him to
produce “reliable, exhaustive data,” Counterpart did not take any action against the consultant
based on the discovery that the survey’s reliability was questionable.

The August 2010 midterm review report for the program noted the following.

        [S]everal targets in the IPTT appear to have been unreasonably ambitious as a
        result of having no reliable primary or secondary data on which to make more
        reasonable estimates. The program baseline results did not provide sufficiently
        reliable data or measure the correct indicators in order to compare results at a
        later date. Moreover, the sample was designed to be representative at the region
        level while the program is working only in some of the communes.

Counterpart agreed that one consequence of the baseline study problem was that some
program targets were unreasonable. However, the problems with the baseline survey had
other, more serious consequences. Namely, it will be difficult for the program to measure its
impact at the time of the final evaluation. Because the baseline data was irrelevant and
unreliable, comparing it to final data for the current IPTT would not provide meaningful
information. Consequently, to determine the program’s impact, Counterpart will need to hire a
consultant to perform a costly final evaluation comparing results for the intervention zone with
those for control communities.

To prevent similar problems with baseline data in future programs, RIG/Dakar makes the
following recommendation.

    Recommendation 1. We recommend that USAID’s Office of Food for Peace establish
    and implement a plan to provide more oversight to partners throughout the baseline
    survey process.



9
  Counterpart paid the consultant four payments totaling 9,401,000 Mauritanian Ouguiyas. According to
OANDA.com exchange rates on the date of each check, the four payments were worth $36,171.
10
   Mauritania is divided into 12 regions in addition to the Nouakchott capital district. Each region is divided
into several communes, also known as departments. At the time of the baseline survey, Counterpart
wanted regional data to use in selecting which parts of the country to target.




                                                                                                             7
In addition, since the baseline survey was not usable for its intended purpose, RIG/Dakar
questions the cost and makes the following recommendation.

     Recommendation 2. We recommend that USAID’s Office of Food for Peace make a
     management decision on the allowability of the ineligible questioned cost of
     approximately $36,171 for the program baseline survey and collect from Counterpart any
     amounts determined to be unallowable.

Cost Recovery From Monetization
Was Lower Than Projected
The program description section of the agreement between USAID and Counterpart projected a
cost recovery rate of 81 percent. The Bellmon determination,11 which USAID used to justify the
program’s monetization activities, projected a cost recovery rate of 88 percent.

The program’s actual cost recovery rate was 67 percent. From 2007 to 2011, the program
performed five wheat monetization transactions (one per year) totaling 35,370 metric tons at a
procurement and shipping cost of $15,613,400. Counterpart, which was responsible for finding
buyers and selling the wheat, earned a total of $10,461,168 from the five transactions. In other
words, on average, the program paid $441 per metric ton of wheat purchased and earned $296
per metric ton sold. The difference of $145 per metric ton was 191 percent higher than the
projected difference (from the agreement’s program description) of $50. The following table
presents the cost recovery rate for all five monetization transactions for the program.

                       Cost Recovery for USAID’s Food for Peace Program
                                  in Mauritania (not audited)
                                Cost Paid for Food       Funds Generated        Cost Recovery
        Transaction Year
                                 and Shipping ($)           by Sale ($)           Rate (%)
              2007                  3,036,000              2,144,351                  71
              2008                  4,123,800              3,183,922                  77
              2009                  2,769,800              1,183,061                  43
              2010                  2,635,200              1,779,297                  68
              2011                  3,048,600              2,170,537                  71
              Total                15,613,400             10,461,168                  67
      Source: USAID.

Working with USAID and Counterpart, the auditor identified three key causes for the lower-than­
expected cost recovery: (1) an unreasonable projection for shipping costs, (2) a 2009 shipment
with a very low cost recovery, and (3) Government of Mauritania intervention in the wheat
market in 2010.



11
   USAID’s Monetization Field Manual defines a Bellmon determination as “an analysis in the proposal
submitted to the Mission Director by the [program partner], pursuant to section 403(a) of [the Food for
Peace Act], showing that a commodity is suitable for monetization (or distribution) in that country,
adequate storage is available in the recipient country, and import of the commodity will not result in a
substantial disincentive to or interfere with domestic production or commercial marketing of the
commodity in that country. The Mission makes the determination on the adequacy of the analysis, subject
to final approval of all aspects of the proposal” by the Office of Food for Peace.



                                                                                                      8
Shipping Costs. First, the difference between actual and projected shipping prices significantly
contributed to the lower-than-expected cost recovery. In the cooperative agreement,
Counterpart projected a shipping cost of $65 per metric ton. In reality, shipping costs averaged
$159 per metric ton over the life of the program, 144 percent higher than the projection. The
fact that Counterpart based its projection on the cost of shipping on foreign-flagged (as opposed
to U.S.-flagged) vessels contributed to the difference between the projection and the actual
cost. While U.S. law requires Food for Peace to ship 75 percent of its commodities (worldwide)
on U.S.-flagged vessels,12 USAID’s Monetization Field Manual13 directs partners to use the
(usually lower) foreign-flagged rate for cost recovery analyses. However, even for the three
shipments sent on foreign-flagged vessels, the shipping cost averaged $160 per metric ton,
more than double the $65 estimate used in the agreement. In fact, the lowest rate that USAID
paid during the 5-year period for shipping to Mauritania was $156 per metric ton. The auditor
concluded that the $65 estimate was unreasonable. Shipping costs represented an average of
35 percent of the total costs paid for commodities and shipping over the life of the program. A
June 2011 report from the Government Accountability Office (GAO) discussed how legislation
requiring the use of U.S.-flagged vessels has resulted in increasingly limited shipping options for
Food for Peace, thus driving up the price.14

Shipment in 2009. Second, USAID shipped 5,650 metric tons of soft red winter wheat (SRW)
to Mauritania in 2009, at a total commodity and freight cost of $2,769,800. The choice of SRW
contradicted a statement in the program’s Bellmon determination: “The only U.S. wheat
acceptable by the flour mills in Nouakchott is hard red winter [wheat] (HRW). Soft red winter
wheat could be used for distribution” (not monetization). SRW is typically used for flat breads,
cakes, cookies, etc., but HRW is primarily used to make bread.15 USAID reported that, because
of turnover in key positions, personnel working on the program at the time of the audit lacked
the institutional knowledge to explain why SRW was selected instead of HRW. However, they
did note that SRW was less expensive to purchase in the United States in 2009. USAID was
also not able to explain why the cost recovery for this transaction was so low. However, the fact
that the program’s only shipment of SRW resulted in the only transaction with cost recovery
below 71 percent could indicate that SRW had little value for buyers.16 The program earned
only $1,183,061 from the sale of the SRW, resulting in a cost recovery rate of 43 percent for this
shipment.

Government Intervention. Third, in 2010, the Government of Mauritania introduced a reform
creating approximately 600 shops around the country that would sell food, including bread made
from imported wheat, at heavily subsidized prices (approximately 30 percent lower than the
market price). Counterpart suspected that this announcement created uncertainty among
Mauritanian wheat buyers who had already presented bids to purchase the program’s shipment
of wheat for 2010. As a result, the highest three bidders withdrew their commitments, and
Counterpart could not force them to honor the bids. Consequently, Counterpart had to
12
   Title 46 of the United States Code, Section 55314. 

13
   USAID’s Office of Food for Peace prepared the Monetization Field Manual in October 1998. At the time

of the audit, USAID was updating the manual.

14
   GAO 11-636, “Funding Development Projects through the Purchase, Shipment, and Sale of U.S. 

Commodities Is Inefficient and Can Cause Adverse Market Impacts,” pages 23-27. 

15
   U.S. Department of Agriculture (http://www.gipsa.usda.gov/fgis/educout/commgallery/gr_hrw.html

and http://www.gipsa.usda.gov/fgis/educout/commgallery/gr_srw.html).

16
   Another possibility for the low cost recovery could have been a sudden drop in wheat prices in

Mauritania in 2009. However, the Monetization Field Manual requires documented explanations for 

losses resulting from an unexpected drop in commodity prices. No such documentation was provided. 




                                                                                                    9
renegotiate the sale at a price slightly higher than the fourth-highest bid. Counterpart’s cost
recovery for this shipment was 68 percent. A shorter period between the bidding and actual
selling of the commodities might have allowed the program to avoid this problem.

The auditor noted that the program’s Bellmon determination was prepared in May 2006 and that
some of the most significant data it used was from October 2004. This data was timely in 2006
when USAID signed the cooperative agreement. However, the Monetization Field Manual
states: “Large quantities of food aid have the potential to affect markets in dramatic ways,
especially if a program continues over several years.” Based on this statement, discussions
with the mission and partner, and the volatility in the domestic and international food market
between 2006 and 2011, the auditor concluded that USAID should update its Bellmon
determination for Mauritania before it establishes any new monetization programs. Based on
discussions with USAID, the auditor also concluded that updating this determination earlier in
the project, perhaps at the midpoint, might have aided in identifying and addressing the cost
recovery problems sooner.

The lower-than-expected cost recovery resulted in increased costs to USAID because
Counterpart had less funding available for program implementation. Specifically, in addition to
the food commodities provided to Counterpart under the agreement, USAID also agreed to
provide $2,876,133 in cash for administrative costs and the internal transport of commodities.
By the time of the audit, USAID had increased this amount to $4,913,043, a 71 percent increase
over the amount estimated in the agreement. USAID cited falling exchange rates, the need to
recruit more staff than planned, and 2010 legislation that allowed it to increase the initial amount
as reasons for the increase, but it also confirmed that lower-than-expected monetization
proceeds were a factor.

While USAID had little control over many of the factors contributing to the lower-than-expected
cost recovery, RIG/Dakar recommends that USAID take the following steps to prevent these
problems in future programs.

     Recommendation 3. We recommend that USAID’s Office of Food for Peace establish
     and implement a plan to require a new Bellmon determination that provides clear
     information on the use of specific types of commodities before awarding any new
     programs in Mauritania.

     Recommendation 4. We recommend that USAID’s Office of Food for Peace address
     the use of realistic shipping rate estimates in program proposals and budgets in its
     upcoming revision to the Monetization Field Manual.

Commodity Quantities on Hand
Differed From Warehouse Records
Counterpart used Generally Accepted Commodity Accountability Principles17 as a reference for
management of its warehouses. Section IV-4 of this document states: “Inventory balances
shown on warehouse commodity records must be validated periodically by physical counts.”


17
  The Code of Federal Regulations (22 CFR 211) authorizes Food for Peace program implementers to
use this document, prepared by an association of 13 nongovernmental organizations.



                                                                                                 10
The same section requires partners to document any adjustments made to warehouse
documentation to reflect actual quantities on hand.

Eight community warehouses visited had records that were verifiable. The auditor noted that
physical inventory on hand varied from current warehouse records in seven. In addition, the
amount of one commodity in the program’s central warehouse could not be determined. The
paragraphs below provide more details.

Community Warehouses. The auditor compared inventory on hand with warehouse records in
eight community warehouses where communities stored food for direct distribution to
beneficiaries. In seven of these warehouses, the inventory on hand for at least one commodity
varied slightly from what beneficiary warehouse managers had recorded. Both the beneficiaries
(who were responsible for distributing commodities) and Counterpart (responsible for
overseeing distributions) explained that a problem with recording distributions caused the slight
variations. Instead of recording the actual amount distributed, beneficiaries multiplied the
number of recipients by the approved ration size and subtracted the result from the starting
balance. The differences occurred because distributions to each beneficiary often varied
slightly from the approved ration size. The fact that Counterpart did not identify the differences
indicated that it had not periodically validated inventories by a physical count. While
beneficiaries and Counterpart officials reported that they performed these counts monthly, they
did not document the counts, making the statement impossible to confirm.

Central Warehouse. In the central warehouse in Nouakchott, the auditor could not count one
stack of approximately 3,300 fifty-kilogram bags of corn-soy blend because they were not
stacked properly.     Counting them would have required counting each individual bag.
Haphazard stacking, combined with Counterpart’s failure to document periodic inventory counts,
indicated that the warehouse staff had not validated the actual inventory by a physical count as
of December 31, 2011, as the partner claimed.

Counterpart reported that it used inventory records to make decisions on times and amounts of
commodities to distribute throughout the supply chain. While the variations between recorded
and actual inventories were small, differences aggregated over the 166 warehouses used by the
program could result in commodity overages or shortages. To address this problem, RIG/Dakar
makes the following recommendation.

   Recommendation 5. We recommend that USAID’s Office of Food for Peace work with
   the partner to develop and implement a system of periodic, documented inventory
   counts for all warehouses where program commodities are stored.




                                                                                               11
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID’s Office of Food for Peace agreed with
Recommendations 1, 3, and 5, and disagreed with Recommendations 2 and 4. Final action has
been taken on four recommendations. A detailed evaluation of management comments follows.

Recommendation 1. USAID’s Office of Food for Peace agreed with the recommendation and
provided a detailed description of steps it has taken starting in July 2009 to improve the baseline
survey process. These steps include the provision of increased oversight and technical
assistance to Food for Peace partners in the form of reviews of baseline survey plans, a revision
to standard indicators for baseline surveys, and a standard indicator handbook for baseline and
final evaluations. We believe that these actions fully address the intent of the recommendation.
As a result, we consider that final action has been taken on Recommendation 1.

Recommendation 2. USAID’s Office of Food for Peace did not agree with the recommendation
and determined that the questioned costs were allowable. Since USAID’s Office of Food for
Peace did not sustain the questioned costs, we consider that final action has been taken on
Recommendation 2 on issuance of this report.

Recommendation 3. USAID’s Office of Food for Peace stated that, while it does not currently
have plans for a new award in Mauritania, it would conduct a new monetization analysis and
issue a new Bellmon determination prior to any future awards in that country. As a result, final
action has been achieved for Recommendation 3.

Recommendation 4. USAID’s Office of Food for Peace disagreed with the recommendation,
stating that applicants base the estimated freight costs in their applications on Food for Peace’s
“commodity calculators.” The Office of Food for Peace stated that it updates these estimates
quarterly. The Office of Food for Peace also implied that the difference between the estimated
and actual shipping rates was due to a dramatic increase during the life of the program.
However, RIG/Dakar notes that the rates for shipping the monetized wheat to Mauritania
actually remained fairly constant over the life of the program, and never once dropped below
$139 per metric ton (more than twice the estimate of $65). Accordingly, RIG/Dakar maintains
that the program used an unrealistic estimate, which in turn contributed to a 71 percent increase
in USAID’s planned cash outlays for the program. We stand by our position that all estimates
should represent the most realistic expectation of actual costs. Reasonable estimates are
essential for management to make decisions about future activities and the cost of these
activities.   Because the office disagreed, there is no management decision on this
recommendation.

Recommendation 5. USAID’s Office of Food for Peace agreed with the recommendation and
stated that, after attending a workshop on commodity management, Counterpart staff decided to
implement a system of documented monthly inventory verifications. This new system will be
coupled with quarterly physical inventory counts that Counterpart will conduct at all warehouses.
As a result, final action has been achieved on Recommendation 5.




                                                                                                12
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Dakar conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence provides that reasonable
basis. The purpose of the audit was to determine whether USAID’s Food for Peace program in
Mauritania was achieving its goals related to strengthening human capabilities in health and
nutrition.

In October 2006, USAID’s Office of Food for Peace signed a cooperative agreement with
Counterpart International to implement the Community Action, Nutrition, and Livelihoods
Program. Under the award, USAID agreed to provide commodities valued at $10.5 million
along with $6.9 million to ship the commodities to Nouakchott, Mauritania. In addition, USAID
agreed to provide $2.9 million for shipping within Mauritania and administrative costs. However,
by the time of the audit, USAID had increased that amount to $4.9 million. The 5-year
implementation period was set to expire on September 30, 2011, but USAID agreed to provide
Counterpart with a 1-year, no-cost extension. At the time of the audit, USAID had provided
Counterpart with 39,780 metric tons of food for the program. Of this amount, Counterpart
monetized 35,370 metric tons of wheat, earning $10.5 million. It also directly distributed 4,110
metric tons of vegetable oil, bulgur, corn-soy blend, and lentils. This was the only Food for
Peace program operating in Mauritania during FYs 2010 and 2011.

The audit covered program activities over a 2-year period, FYs 2010 and 2011, but the auditor
also considered monetization activities over the life of the program. The auditor conducted
fieldwork at USAID/Senegal, USAID/Mauritania, and partner and subpartner offices and
intervention sites in two of the four regions where the partner was implementing the program in
Mauritania.     The visits included 3 partner offices, 3 subpartner offices, 9 beneficiary
communities, and 12 warehouses that stored program commodities. During the visits, the
auditor focused on the program’s performance data, monetization activities, and commodity
management.

As part of the audit, the auditor assessed relevant controls that the mission used to manage the
program. The assessment included verification that the mission had (1) conducted and
documented site visits to evaluate progress, (2) reviewed partner progress, and (3) compared
reported progress with planned progress and the mission’s own evaluations of progress.
Additionally, the auditor examined the mission’s FY 2010 and FY 2011 annual self-assessment
of management controls, which the mission is required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982, to determine whether the assessment cited any
relevant weaknesses.

Methodology
To determine whether the program was achieving its goals, the auditor interviewed officials from
USAID’s Office of Food for Peace, the partner, and subpartners, in addition to program
beneficiaries. The auditor also reviewed Food for Peace, USAID, partner, and beneficiary


                                                                                             13
                                                                                        Appendix I


documents related to the program. These documents included the cooperative agreement and
associated modifications, mission and partner performance reporting tools and supporting
documentation, the program’s baseline study and midterm review, mission trip reports,
documents related to the program’s monetization history, and the partner’s commodity inventory
documentation.

The auditor focused on eight performance indicators in the program’s IPTT to verify the
accuracy and reliability of the reported performance data. The auditor interviewed mission and
implementer staff regarding processes for collecting, verifying, and reporting performance
results. The auditor also compared the results reported for the indicators with supporting
documentation to determine whether the results met USAID’s data quality standards. The
auditor found that, in many cases, the results reported for the indicators did not meet USAID’s
standards for validity or reliability. The auditor selected items for this testing based on a
judgmental sample. As a result, the results and overall conclusions related to this testing were
limited to the items tested and could not be projected to the entire audit universe.

To address the program’s monetization activities, the auditor reviewed the costs and earnings
as reported by the mission to determine the cost recovery rate for the program’s monetization
activities. To address the program’s management of commodities, the auditor obtained the
commodity management standards used by the program and compared them with the actual
conditions in 12 warehouses where the partner stored commodities.

The auditor conducted site visits to beneficiary communities to consider the impact of the
program as well as the sustainability of that impact. During these visits, the auditor also verified
that the partner was actually implementing selected program activities.

The auditor conducted fieldwork from January 18 to February 7, 2012.




                                                                                                 14
                                                                                     Appendix II




MANAGEMENT COMMENTS
March 23, 2012


MEMORANDUM

TO:	          Gerald Custer, Regional Inspector General/Dakar

FROM:	        Dina Esposito, Director, USAID/Office of Food for Peace
              Henderson Patrick, Mission Director, USAID/Senegal

SUBJECT:	     Management Responses to RIG/Dakar Draft Report on Audit of USAID’s Food
              for Peace Activities in Mauritania (Report No. 7-682-12-005-P)

On February 23, 2012, the USAID Office of Food for Peace (USAID/FFP) in Washington and
USAID/Senegal, to which the USAID/FFP/Dakar Regional Office reports, received the draft
report on the subject audit containing four findings and five recommendations. The purpose of
this memorandum is to describe the significant actions already taken by USAID and the
awardee for each of the five recommendations and, in turn, respond to the key findings. In
addition, USAID/FFP requests that management decisions be issued for all five
recommendations and that all recommendations be closed based on actions taken to date.

Overall, USAID appreciates the efforts undertaken by the auditors to strengthen the systems
and procedures of USAID/FFP programs in Mauritania and would like to underscore the special
circumstances in which U.S. Government (USG) staff and Counterpart International
(Counterpart) have worked in Mauritania over the past five years. In addition to being located in
a USAID non-presence country, the USAID/FFP program in Mauritania has faced numerous
challenges. Key challenges include a 2008 military coup, which restricted working with
proposed government partners; an unstable security situation due to Al-Qaeda of the Islamic
Maghreb presence; and several kidnappings and killings of staff of non-governmental
organizations. Staffing turnovers were extremely high and, due to travel restrictions, certain
implementation sites were inaccessible to expatriate staff of Counterpart and USG personnel.

Despite these constraints, USAID/FFP staff based in Senegal and Mauritania worked closely
with Counterpart to implement and monitor program activities and improve procedures as
needed. Since fiscal year (FY) 2010, USAID staff has made six monitoring trips to
Counterpart’s implementation areas in order to review data quality and commodity management
systems. USAID/FFP’s Agreement Officer’s Representative (AOR) conducted monitoring trips
in FY 2010 and FY 2011. In FY 2011, USAID/Senegal hired a Food for Peace Officer (FFPO) in
Mauritania to closely monitor program activities; the FFPO made three field trips in FY 2011. A
representative from USAID/FFP/Dakar accompanied both the AOR and the FFPO in each of
these five site visits. To date in FY 2012, the FFPO has conducted one monitoring visit. This
was a significant change in management and represents an increase in oversight as compared
to previous years.

In providing these responses to the audit recommendations, USAID underscores that there are


                                                                                              15
                                                                                        Appendix II


limitations on USG involvement because USAID/FFP awards are cooperative agreements.
There are also limitations on the level of programmatic changes that USAID can realistically ask
Counterpart to implement as Counterpart/Mauritania will not receive additional USAID/FFP
resources after FY 2012 because Mauritania has not been selected for a new Title II
development food assistance award in FY 2013.


Recommendation No. 1: We recommend that USAID’s Office of Food for Peace establish a
plan to provide more oversight to partners throughout the baseline survey process.

Response No. 1: USAID/Senegal and USAID/FFP concur with recommendation No. 1. On
July 30, 2009, USAID/FFP issued Food for Peace Information Bulletin (FFPIB) 09-06,
“Monitoring and Evaluation Responsibilities of Food for Peace Multi-Year Assistance Programs
Awardees,” which describes key monitoring and evaluation (M&E) responsibilities of awardees
throughout the life of awards.1 In addition, USAID/FFP and its technical partner, Food and
Nutrition Technical Assistance (FANTA), provide significant oversight and technical assistance
during the development and finalization of M&E materials, including baseline surveys. Current
USAID/FFP awardees must submit a baseline survey plan to USAID/FFP for approval prior to
data collection. Further strengthening the quality of partner surveys and evaluations was the
December 20, 2011 release of FFPIB 11-03, “Revision to FFP Standard Indicators for Baseline
Surveys and Final Evaluations,”2 and its accompanying “FFP Standard Indicators Handbook for
Baseline and Final Evaluations.”3

Unfortunately, the Mauritania Title II program did not have the advantage of benefiting from this
additional guidance as it pre-dated these policies. However, Counterpart participated in the
USAID/FFP-sponsored week-long training opportunity on M&E held in Burkina Faso in February
2012. Two staff from Counterpart/Mauritania attended the Technical Operation Program
Support M&E workshop, where they enhanced their knowledge on the development of detailed
M&E plans, as well as qualitative data analysis.

Based on this clarification, USAID/Senegal and USAID/FFP request that RIG/Dakar close
Recommendation No. 1 prior to the issuance of the RIG report.

Recommendation No. 2: We recommend that USAID’s Office of Food for Peace make a
management decision on the allowability of the ineligible questioned cost of approximately
$36,171 for the program baseline survey and collect from Counterpart any amounts determined
to be unallowable.

Response No. 2: USAID/Senegal and USAID/FFP do not concur with recommendation No. 2.
As stated on page 7 of the Draft Report, “poor planning and insufficient oversight from USAID
led to the problems with the baseline study.” As neither USAID/FFP nor Counterpart is solely
culpable for the deficiencies of the September 2007 baseline survey, USAID/FFP Agreement
Officer has determined that these costs will stand. USAID/FFP notes that both parties have

1
    http://www.usaid.gov/our_work/humanitarian_assistance/ffp/ffpib_09.06.pdf
2
    http://www.usaid.gov/our_work/humanitarian_assistance/ffp/ffpib.stdindicators.pdf
3
    http://www.usaid.gov/our_work/humanitarian_assistance/ffp/ffpstdindicatorhb.pdf




                                                                                                16
                                                                                         Appendix II


learned from this experience, and have made good faith efforts to ensure that this situation does
not happen again. USAID/FFP’s efforts are documented in the response to Recommendation
No. 1. For its part, Counterpart has been diligent in implementing specific recommendations
from the 2010 mid-term evaluation that relate to this finding. For instance Counterpart has
adjusted the stunting and underweight indicators in the Indicator Performance Tracking Table,
and has collaborated fully with USAID/FFP while doing so. Furthermore, Counterpart has
planned for a thorough, quantitative final evaluation. The results of the final evaluation will be
compared with control areas with similar nutritional and food security status. The scope of work
is being finalized in close consultation with USAID/FFP and FANTA.

Based on this clarification, USAID/Senegal and USAID/FFP request that RIG/Dakar close
Recommendation No. 2 prior to the issuance of the RIG report.

Recommendation No. 3: We recommend that USAID’s Office of Food for Peace establish a
plan to require a new Bellmon determination that provides clear information on the use of
specific types of commodities before awarding any new programs in Mauritania.
Response No. 3: USAID/Senegal and USAID/FFP concur with this recommendation, and on
November 26, 2008, USAID/FFP issued Information Bulletin (FFPIB 09-02), “New Procedures
to Establish Compliance in P.L. 480 Title II Food Aid Program Proposals with the Conditions of
the Bellmon Amendment.”4 The FFPIB established a new approach to help USAID Missions
fulfill their responsibility and legal obligation to make a formal declaration in compliance with the
Bellmon Amendment. In FY 2009, USAID/FFP piloted the Bellmon Estimation for Title II (BEST)
Project, hiring FINTRAC to conduct independent market analysis in priority countries. Today,
the BEST Project is fully integrated into USAID/FFP operations. Applicants for Title II
development food assistance awards are expected to use the BEST findings, as well as findings
from their own independent assessments, to inform their applications:
        For all programs, applicants must demonstrate that (a) proposed distribution and
        monetization food aid commodity levels will not result in disincentives to or
        interference with local agricultural production or marketing and will not disrupt
        commercial markets and (b) importation of agricultural commodities and the use
        of local currencies generated under the proposed award will not have a disruptive
        impact on the farmers or the local economy of the recipient country.5

Additional details and instruction on the information required to justify commodity selection are
as follows:

        Monetization and/or Distribution Plan. The monetization plan should be
        developed as outlined in the FFP Monetization Field Manual found at
        http://www.usaid.gov/our_work/humanitarian_assistance/ffp/govdoc.html.
        Note that the country-specific information, RFA and FFP Information

4
    http://www.usaid.gov/our_work/humanitarian_assistance/ffp/ffpib.09.02.pdf
5
  Office of Food for Peace. Fiscal Year 2012 Title II Development Food
Assistance Programs. Washington, DC. Page 3,
http://www.usaid.gov/our_work/humanitarian_assistance/ffp/fy12.developmentpro
gramrfa.pdf




                                                                                                  17
                                                                                     Appendix II


       Bulletins take precedence over the manual, should there be a
       discrepancy. Key points should include a justification for the proposed
       monetization (including the level of monetization expressed as a
       percentage of total tonnage), description of the proposed mechanics of the
       monetization (e.g., type of sale, type of buyer, anticipated food aid
       commodities, and whether the potential sale will be conducted with other
       awardees), and a discussion of the local market factors and potential risks
       that may affect distribution as well as monetization. Complete the following
       monetization tables and submit as an annex: Anticipated Monetization
       Proceeds and Cost Recovery Data; Anticipated Monetization Results
       Analysis; and Anticipated Life of Award Analysis for Monetization
       Proceeds.
       For the Distribution Plan, the applicant must discuss the local market factors and
       potential risks that may affect distribution. Both food aid commodity monetization
       and distribution programs need to be familiar with and understand the
       implications of the FFP Information Bulletin (09-02) entitled, New Procedures to
       Determine Compliance of P.L. 480 Title II Food Aid Program Proposals with the
       Conditions of the Bellmon Amendment found at:
       http://www.usaid.gov/our_work/humanitarian_assistance/ffp/ffpib.09.02.pdf .6

At this time there are no new awards being issued in Mauritania; however, prior to any future
awards, a new BEST Project will be conducted and a Bellmon Determination issued.

Based on this clarification and since there are no new awards planned for Mauritania,
USAID/Senegal and USAID/FFP request that RIG/Dakar close Recommendation No. 3 prior to
the issuance of the RIG report.

Recommendation No. 4: We recommend that USAID’s Office of Food for Peace address the
use of realistic shipping rate estimates in program proposals and budgets in its upcoming
revision to the monetization field manual.

Response No. 4: USAID/Senegal and USAID/FFP do not concur with this recommendation due
to the fluid nature of USAID/FFP operations. When applicants submit proposals for Title II
development food assistance programs, the estimated commodity and freight costs are
determined by the current commodity calculator distributed by USAID/FFP. As commodity and
freight costs fluctuate constantly, the calculations submitted to USAID/FFP in the proposal are
understood by all parties to be estimates; they function to help create the cost and
programmatic framework for the life of award, as well as each year of the award.

The commodity calculators are updated to reflect current commodity and freight costs on a
quarterly basis, and are employed again by awardees both during the annual program approval
process, as well as in advance of each call forward. It is used to estimate the number of
commodities an awardee can call forward while remaining aligned with the approved award
framework. Cost-recovery rates are not determined until the awardee’s official commodity

6
  Office of Food for Peace. Fiscal Year 2012 Title II Development Food
Assistance Programs. Washington, DC. Page 11,
http://www.usaid.gov/our_work/humanitarian_assistance/ffp/fy12.developmentpro
gramrfa.pdf



                                                                                                18
                                                                                        Appendix II


request is made through the U.S. Department of Agriculture’s (USDA) sales order system. Just
prior to the submission of the sales order, the Program Operations Division of USAID/FFP
receives “spot prices” from USDA on commodity costs and the Office of Acquisition and
Assistance on freight rates. These rates, which best capture market activity in the commodity
and freight industries at the time of the call forward, are relayed to the awardee and included in
its sales order. When Counterpart submitted its application in 2006, neither USAID/FFP nor
Counterpart could have predicted that shipping rates would change so drastically during the life
of its program.

Based on this clarification, USAID/Senegal and USAID/FFP request that RIG/Dakar close
Recommendation No. 4 prior to the issuance of the RIG report.

Recommendation No. 5: We recommend that USAID’s Office of Food for Peace work with the
partner to implement a system of periodic, documented inventory counts for all warehouses
where program commodities are stored.

Response No. 5: USAID/FFP and USAID/Senegal concur with Recommendation No. 5. In
March 2011, Counterpart’s Commodity Manager attended the Commodity Management
Workshop held in Dakar. During this workshop, participants learned how to conduct and control
warehouse inventory. As a result of this training, Counterpart developed a tally sheet to
facilitate accurate end-of-fiscal-year physical inventory counts at the regional warehouses. This
audit experience, however, highlighted the importance of instituting more frequent checks of
Counterpart’s warehouses, particularly at the community level. Therefore, beginning March
2012, Counterpart will use these tally sheets each month to conduct physical inventories on
commodity levels. These reports will be reviewed and signed both by the responsible staff
member and also the warehouse manager. Additionally, Counterpart will conduct independent
and verifiable physical inventory counts at the end of each quarter. In response to this RIG
recommendation, Counterpart will now have a non-commodity management staff member (i.e.,
the regional manager, logistician, financial management staff, etc.) conduct this physical
inventory. Counterpart will submit the inventory form to USAID along with the program’s
quarterly reports. The monthly and quarterly physical inventory counts will take place at the
national, regional, and community warehouses. As of the end of February 2012, Counterpart
has 551.358 MTs of commodities to program during the final seven months of its award. Please
refer to attached samples of the monthly tally sheets and quarterly inventory form.

Based on this clarification, USAID/Senegal and USAID/FFP request that RIG/Dakar close
Recommendation No. 5 prior to the issuance of the RIG report.

Conclusion

This Memorandum serves as USAID/FFP’s and USAID/Senegal’s response to the
recommendations outlined in RIG/Dakar’s Memorandum dated February 23, 2012. As noted in
the introduction, there were several events beyond USAID’s control, including political instability
and staff shortages at the start of the project, that affected (and will continue to affect) program
progress and oversight in Mauritania. USAID/FFP staff in Mauritania, Washington, and Dakar,
along with Counterpart, will continue working closely and collaboratively to improve procedures
and sustain program impact during the final year of implementation.




                                                                                                  19
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
